RETAIL CHARGE AGREEMENT/ SECURITY AGREEMENT

WI15-W

Preferred Credit, Inc. – 628 Roosevelt Road, St. Cloud, MN 56301 ZIP Line: 877-878-1079 Customer Service: 800-972-0825
IFYOU ARE MARRIED, YOU MAY APPLY FOR CREDIT SEPARATELY AS AN INDIVIDUAL.
TYPE OF CREDIT REQUESTED (CHECK APPROPRIATE BOX):
❑ INDIVIDUAL – IN YOUR NAME,RELYING ONYOUR OWN INCOME. COMPLETE BUYERINFORMATION.
❑ JOINT– WITHANOTHERPERSON. COMPLETE BUYER AND CO-BUYERINFORMATION.

Verify Customer’s
Government Issued I.D.
LastName

WE INTEND TO
APPLY FOR
JOINT CREDIT

**** IDENTIFICATION VERIFICATION ****
State

ExpirationDate

Co-Applicant’sDriver’sLicense/I.D.#

State

ExpirationDate

FirstName

MiddleInit.

**** APPLICANT INFORMATION ****
DateofBirth

SocialSecurity#

HomePhone #

ZIP

❑ Self-Employed
❑ Retired

❑ Military Pay Grade _____________________________
❑ Other_______________________________________

Employer/PrimarySourceofIncome

YearsThere

EmailAddress
OtherIncomeType(s)(CheckALLthatapply): Alimony, child support and maintenance payments need not be disclosed if you do not wish us to consider them in

MonthlyGrossIncome

$ ________________
YearsThere

JobTitle

EmployerPhone

determining yourcredit worthiness.
❑ Full-Time
❑ Part-Time

BusinessExt. ❑ OWNS

❑ PROVIDED
EmployerLocation(City,State)

❑ RENTS
❑ OTHER

❑ Military Pay Grade ______________________________
❑ Other _______________________________________ $ ________________

} ❑❑

HOUSE
MOBILE

Bank Accounts
Please Check ALLthat Apply:

LastName

FirstName

MiddleInit.

DateofBirth

PhysicalAddress

❑ Full-Time
❑ Part-Time

MonthlyGrossOtherIncome

❑ Self-Employed
❑ Retired

❑ APT ❑ CONDO
❑ LIVES WITH FAMILY

❑ Military Pay Grade _____________________________
❑ Other_______________________________________

Employer/PrimarySourceofIncome

SocialSecurity#

$ ________________

EmployerPhone

HomePhone #

CellPhone #
ZIP

❑ Full-Time
❑ Part-Time
❑ PROVIDED

EmployerLocation(City,State)

(2) NameofNearestRelativeNotLivingWithYou

City/State

MonthlyGrossOtherIncome

❑ Self-Employed
❑ Retired
❑ RENTS
❑ OTHER

Bank Accounts
Please Check ALLthat Apply:
City/State

YearsThere

determining yourcredit worthiness.

BusinessExt. ❑ OWNS

(1) NameofNearestRelativeNotLivingWithYou

❑ SAVINGS

OtherIncomeType(s)(CheckALLthatapply): Alimony, child support and maintenance payments need not be disclosed if you do not wish us to consider them in

MonthlyGrossIncome

YearsThere

JobTitle

$ _________________

❑ CHECKING

Apt./Lot# City/State

❑ Self-Employed
❑ Retired

MonthlyHousingPayment

*Include spouse’s contact information regardless of application type

CO-APPLICANT INFORMATION: ❑ SPOUSE* ❑ CO-BUYER; RELATIONSHIP: _________________________________________________

PrimaryIncomeType

CellPhone #

Apt./Lot# MailingAddress(IfdifferentfromPhysicalAddress)

City/State

❑ Full-Time
❑ Part-Time

__________________
CO-APPLICANT/
CO-BUYERINITIALS

Applicant’sDriver’sLicense/I.D.#

PhysicalAddress

PrimaryIncomeType

PCIConsumerAccountNo.
________________
APPLICANT/
BUYERINITIALS

**** REFERENCES ****

❑ Military Pay Grade ______________________________
❑ Other _______________________________________ $ ________________

} ❑❑

HOUSE
MOBILE

❑ APT ❑ CONDO
❑ LIVES WITH FAMILY
❑ CHECKING

MonthlyHousingPayment

$ _________________
❑ SAVINGS

Relative’sPhone

Relationship

Relative’sPhone

Relationship

WI15-W

No provision of a marital property agreement, a unilateral statement under Wis. Stat. Ann. §766.59, or a court decree under Wis. Stat. Ann. §766.70 adversely affects Seller’s interest unless the Seller, prior to the
time credit is granted, is furnished with a copy of the agreement, statement, or decree or has actual knowledge of the adverse provision when the obligation to Seller is incurred.
By signing below you (a) apply for credit; (b) agree that, to the best of your knowledge, all information contained in the application above is complete and accurate; (c) recognize that we may obtain consumer
reports on you in connection with your application and may obtain and use subsequent reports in connection with an update, renewal or extension of credit for which you may apply, and other uses not prohibited
by law; (d) expressly authorize any third party (i.e. creditor, bank, or financial institution, employer, landlord, etc.) to release whatever information that we may request concerning you; (e) agree that we may monitor
and record telephone calls regarding your account for quality assurance and for other reasons not prohibited by law; (f) expressly consent and agree to us using written, electronic or verbal means to contact you
as not otherwise prohibited by law including, but not limited to, contact by manual calling methods, prerecorded or artificial voice messages, text messages, emails, and/or automatic dialing systems and do so
using any email address or telephone number you provide, now or in the future, including a number for a mobile phone or other wireless device regardless of whether you may incur charges as a result; (g)
acknowledge that the terms and conditions of this Agreement are subject to credit approval; (h) acknowledge that Interest Charges will be imposed in amounts or rates not in excess of those permitted by law; (i)
acknowledge this instrument is based upon a home solicitation sale, which is subject to the provisions of Wis. Stat. Ann. §§ 423.101 et. seq.; (j) grant us a purchase money security interest in the goods you
purchase under this Agreement which are described in any order, invoice or similar document issued by the Seller (as provided below) which becomes part of this Agreement; (k) acknowledge that this instrument
is not negotiable; and (l) acknowledge that you are receiving the Retail Charge Agreement: Additional Terms and Disclosures. The Additional Terms and Disclosures are in effect on the date of execution and
incorporated herein.
NOTICE TO BUYER: (a) Do not sign this Agreement before you read it or if it contains any blank spaces. (b) You Your initial(s) below mean that (a) you have read and understand the terms and
are entitled to a copy of this Agreement when you sign it. (c) You have the right at any time to pay in advance conditions as set forth on all 5 pages of this Agreement; (b) you agree to the
terms of this Agreement; and (c) you will pay any advances made under this
the unpaid balance due under this Agreement.
Agreement according to its terms.
Your signatures below mean that you have received a completely filled in copy of this Agreement.

X

Date

/

/

Date

/

/

Buyer’sSignature

X
Co-Buyer’sSignature
SELLER:
CompanyName:

SALE:
Consultant:

Address:

PCIClientNo.:

Seller’sInitials:

BUYERIINITIALS
PROMOTIONALCREDITPLAN(ifapplicable):

CO-BUYERIINITIALS

AUTHORIZATION FOR PREAUTHORIZED PAYMENTS

By signing below, I hereby request and authorize Preferred Credit, Inc. (PCI) to initiate entries to debit my account on the due date for the minimum monthly payment amount shown on my monthly periodic
statement of account (or the next business day if the due date falls on a weekend or holiday) and as otherwise described below. This authority is to remain in full force and effect until PCI is paid in full, or PCI has
received written notification of its termination at 628 Roosevelt Road, St. Cloud, MN 56301 or I have notified my financial institution at least three business days before the scheduled payment. In addition to the
payment amount, I request and authorize PCI to initiate entries to debit my account to collect any incidental fees or charges that may be due on the Agreement following maturity, as permitted by applicable law.
Bank/Financial Institution Name:
CheckWhichOneApplies:

❑ CHECKING ❑ SAVINGS

Name (Print):

Location (City, State, Zip):
Routing Number:

Account Number:
Signature:
Page 1 of 5

CUSTOMER PRIVACY

FACTS
Why?

WHAT DOES PREFERRED CREDIT, INC. (“PCI”) DO WITH YOUR PERSONAL INFORMATION?

Rev. 10/19

Financial companies choose how they share your personal information. Federal law gives consumers the right to limit some but not all sharing. Federal law also requires us to tell you how we
collect, share and protect your personal information. Please read this notice carefully to understand what we do.
The types of personal information we collect and share depend on the product or service your have with us. This information can include: (1) Social Security Number and income; (2) account
What?
balances and payment history; and (3) credit history and credit scores.
All financial companies need to share customers’ personal information to run their everyday business. In the section below, we list the reasons financial companies can share their customers’
How?
personal information; the reasons PCI chooses to share; and whether you can limit this sharing.
Reasons we can share your personal information
Does PCI share?
Can you limit this sharing?
For our everyday business purposes - such as to process your transactions, maintain your account(s), respond to court orders and
Yes
No
legal investigations, or report to the credit bureaus
For our marketing purposes - to offer our products and services to you
Yes
No
For joint marketing with other financial companies
No
We don’t share
For our affiliates’ everyday business purposes - information about your transactions and experiences
No
We don’t share
For our affiliates’ everyday business purposes - information about your creditworthiness
No
We don’t share
For our affiliates to market to you
No
We don’t share
For nonaffiliates to market to you
Yes
Yes
To limit our Complete the opt-out election form below.
sharing
Please note: If you are a new customer, we can begin sharing your information 30 days from the date we sent this notice. When you are no longer our customer, we continue to share your
information as described in this notice. However, you can contact us at any time to limit our sharing.
Questions? Call 320-255-9784 or go to www.preferredcredit.com

What we do

How does PCI protect my personal information? - To protect your personal information from unauthorized access and use, we use security measures that comply with federal law. These measures include
computer safeguards and secured files and buildings. We continually evaluate and access new technology for protecting your nonpublic personal information.
How does PCI collect my personal information? - We collect personal information, for example, when you (1) apply for financing or give us your contact information; (2) provide account information or pay
your bills; and (3) show your government-issued ID. We also collect your personal information from others, such as credit bureaus, affiliates, or other companies.
Why can’t I limit all sharing? - Federal law gives you the right to limit only (1) sharing for affiliates’ everyday business purposes (i.e. information about your creditworthiness); (2) affiliates from using your
information to market to you; and (3) sharing for nonaffiliates to market to you. State laws and individual companies may give you additional rights to limit sharing. See below for more on your rights under state
law.
What happens when I limit all sharing for an account I hold jointly with someone else? - Your choices will apply to everyone on your account unless you tell us otherwise.

Definitions
Affiliates - Companies related by common ownership or control. They can be financial or nonfinancial companies. PCI does not share with our affiliates

Nonaffiliates - Companies not related by common ownership or control. They can be financial and nonfinancial companies. Nonaffiliates we share with can include direct marketing companies and the retailer
named on your account.
Joint Marketing - A formal agreement between nonaffiliated financial companies that together market financial products or services to you. PCI does not jointly market

Other Important Information

We follow state law if state law provides you with additional privacy protections.
Mark if you wish to limit how we share your personal information with nonaffiliates:
Applicant Co-Applicant
❑
❑
Do not share my personal information with nonaffiliates to market their products and services to me.
Assignment by Seller (“Assignment”): FOR VALUE RECEIVED: Seller sells and assigns this Retail Charge Agreement (the “Agreement”) to Preferred Credit, Inc., 628 Roosevelt Road, St. Cloud, MN 56301,
the assignee, its successors and assigns, including all of Seller’s rights, title, and interest in this Agreement. Assignee has full power to take all legal and other actions, which Seller could have taken under this
Agreement. The undersigned acknowledges that this Assignment incorporates by reference the terms of the Finance Agreement between the undersigned and Preferred Credit, Inc. including but not limited to
the representations, warranties, liabilities, conditions and obligations of the undersigned contained therein.

Opt-out
Election

(Corporate, Firm or Trade Name of Seller)
(Owner, Officer or Firm Member)

THIS DOCUMENT IS SUBJECT TO A SECURITY INTEREST IN FAVOR OF US BANK NATIONAL ASSOCIATION.

REVISED 10-01-2019 PRINTED 00-00-2019
© 1990-2019 Preferred Credit, Inc. ALL RIGHTS RESERVED. Duplication of this document without the copyright owner’s prior written consent is strictly prohibited.

WI15-W
Page 2 of 5

RETAIL CHARGE AGREEMENT: ADDITIONAL TERMS AND DISCLOSURES
IMPORTANT INFORMATION ABOUT PROCEDURES FOR OPENING A NEW ACCOUNT - To help the government fight the funding of terrorism and money laundering activities, Federal law requires all
financial institutions to obtain, verify, and record information that identifies each person who opens an account. What this means for you: When you open an account, we will ask for your name, address, date of
birth, and other information that will allow us to identify you. We may also ask to see your driver's license or other identifying documents.

Interest Rates and Interest Charges

Annual Percentage Rate (APR) for Purchases
How to Avoid Paying Interest

21.99%. See your account agreement for more details.

Your due date is at least 25 days after the close of each billing cycle. We will not charge you any interest on purchases if you pay your entire balance by
the due date each month.
Minimum Interest Charge
None.
For Credit Card Tips from the Consumer To learn more about factors to consider when applying for or using a credit card, visit the website of the Consumer Financial Protection Bureau at
Financial Protection Bureau
http://www.consumerfinance.gov/learnmore.

Fees

Transaction Fees
None.
Penalty Fees
$20. See your account agreement for more details.
• Late Payment
$25. See your account agreement for more details.
• Return Payment
How We Will Calculate Your Balance: We use a method called “average daily balance (including new purchases).” See your account agreement for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your account agreement.
1. Definitions: In this Retail Charge Agreement ("Agreement"): The word "Account" refers to the account that is established with the Seller, and their successors or assigns, that is the subject of this Agreement.
The words "you" and "your" refer to each individual who signs the Application for the Account, and who is authorized to use the Account. The words “we,” “us” and “our” refer to the Seller, and any assignee of the
Seller. The words “Acceptable Documentation” shall refer to Purchase Orders, phone orders, or orders from our website, so long as such orders are signed (physically or electronically) or otherwise verbally or
electronically authenticated. The words “Applicable Law” shall mean Federal law and the laws of the state of Wisconsin. You and we agree that these Applicable Laws apply to this Agreement. The words
“Purchase Order” refer to the document describing the type, quantity and agreed price of merchandise you buy from the Seller.
2. Account: This Agreement applies to your retail charge purchase of goods and services from us. The amount of your initial purchase from Seller will govern the amount of the initial credit limit on your Account,
which will be set at a higher amount than the cost of the goods purchased based on our expectation that you will use the Account to make additional purchases. You may make add-on purchases from the Seller
or Seller's assigns which will be evidenced by Acceptable Documentation. Acceptable Documentation must provide the cash price of the merchandise purchased. By signing future Acceptable Documentation
you agree those purchases thereby confirmed will be subject to this Agreement. You agree that add-on orders which exceed the credit limit established with your initial order are subject to credit approval. We
reserve the right to deny authorization for any requested credit limit increase.
3. Promise to Pay: In return for extending credit to you on this Account from time to time, each of you agrees to pay for all purchases any of you charge on this Account, and all other charges mentioned below,
according to the terms of this Agreement. When you sign the Application for this Account, you will be agreeing to the terms and conditions in this Agreement, which include the cost of credit disclosures required
by Applicable Law. This Agreement will not be effective until we approve your Application, and we or our assignee provides any disclosures required by the federal Truth in Lending Act, and then, after that, only if
you or someone authorized by you sign a Purchase Order or otherwise charge a purchase to this Account.
4. Billing: You will be billed monthly for credit purchases from us, as shown on a Purchase Order signed by you (or completed at your direction), and for any previous unpaid balance as required by Applicable
Law. You will receive a monthly periodic statement of account for any month in which you have an outstanding balance of more than $1.00 or on which an Interest Charge has been imposed. Your monthly
periodic statement of account will show your new unpaid balance, any new purchases you have made since your last monthly periodic statement of account, and your Minimum Monthly Payment. Your credit
limit will also be shown on your monthly periodic statement of account.
5. Payment: You have the right to pay your entire balance in full or more than the Minimum Monthly Payment at any time. Otherwise, you agree to pay the Minimum Monthly Payment, which includes
Interest Charges. You must make payment in U.S. Dollars, with a draft, money order, or check drawn on a U.S. Bank or the U.S. Post Office. We may accept late payment, partial payments, or any payments
marked "payment in full," without losing any of our rights under this Agreement or Applicable Law.
6. Interest Charges: Unless you are offered a Promotional Credit Plan as described below, and as not prohibited by Applicable Law, Interest Charges will begin to accrue upon delivery of the merchandise you
purchase. Delivery occurs upon the earlier of the date of shipment of the merchandise, or the date of hand delivery of the merchandise. No Interest Charges will be imposed on new purchases, however, if: (a)
there was no outstanding balance under your Account at the beginning of the billing period in which the purchase was made (which includes the period in which you make your initial purchase of merchandise
under this Agreement), and (b) you pay off your Account in full by the payment due date reflected in the monthly periodic statement of account for that billing period (though no payment may be due). We figure
the Interest Charge on your Account by applying a daily periodic rate to the "average daily balance" of your Account (including current transactions) and multiplying the result by the number of days in the billing
period. To get the "average daily balance" we take the beginning balance of your Account each day (including unpaid Interest Charges and other fees owed), add any new purchases, and subtract any payments
or credits. This gives us the daily balance. Then, we add up all the daily balances for the billing cycle and divide the total by the number of days in the billing cycle. This gives us the “average daily balance.” Your
daily periodic rate and the corresponding Annual Percentage Rate are indicated in the chart below. The daily periodic rate will be the annual rate divided by 365 (366 in a leap year):
Applicable
Daily
Corresponding
Law
Periodic Rate
ANNUAL PERCENTAGE RATE
WI
0.0603%
21.99%
Notwithstanding the above, if we receive payment in full of the outstanding balance of your Account, as shown on the billing statement, within 25 days after the end of that billing period, we will not impose Interest
Charges for the current billing period.
7. Minimum Monthly Payment: As not prohibited by Applicable Law, you will make payments of at least the total Minimum Monthly Payment each month as required by our monthly periodic statements of
Account. Your total Minimum Monthly Payment will consist of: (1) any past due amounts and (2) a regularly scheduled Minimum Monthly Payment. The regularly scheduled Minimum Monthly Payment will be
equal to the greater of: (a) the regularly scheduled Minimum Monthly Payment shown on your Purchase Order; (b) $25.00; or (c) 3.00% of the Account balance immediately following the first or any subsequent
purchase on your Account.
8. Promotional Credit Plans: In addition to purchases that accrue Interest Charges and require monthly payments as described previously in this Agreement, as part of this Account, Promotional Credit Plans
may be offered from time to time on specific additional purchases for qualified buyers. Purchases made under these Promotional Credit Plans may have different interest charge calculations and required minimum
payments. A Promotional Credit Plan is strictly limited by its terms and the terms and conditions of the special promotion to which it relates. In addition, the benefits of a Promotional Credit Plan will expire and all
accrued Interest Charges in these plans will be added to your Account if you fail to pay the promotional balance by the end of the promotional period or you are in default for a period of 60 or more days during the
promotional period. The special promotions that may be offered include:
8.a. Same as Cash Plan: If you pay the full purchase price before the expiration date of a Same as Cash Plan, as indicated on your monthly periodic statement of account, and pay the Minimum Monthly
Payment each billing period when due, no Interest Charges will be imposed on the purchase. If such payments are not made, Interest Charges from the date of delivery will be added to your Account either when
you fail to make a payment within 60 days of the due date or, at the end of the Same as Cash Plan period if any portion of the promotional balance remains outstanding.
8.a.1 How Payments Are Applied When Same as Cash Plan Is In Effect: Unless, otherwise required by Applicable Law, during the two billing cycles immediately preceding expiration of the Same as Cash
Plan period, any amount paid in excess of the minimum payment due will be allocated first to the balance subject to the Same as Cash Plan and any remaining portion to any other balances. We may offer Same
as Cash Plan periods of 6 months, 9 months, 12 months or of different lengths that we will announce from time to time.
9. Application of Payments: Unless otherwise required by Applicable Law, payments except down payments, shall be applied first to past due Minimum Monthly Payments, beginning with the oldest, then to
the current Minimum Monthly Payment, and then to other unpaid late fees, costs and fees arising under this Agreement.
10. Other Charges:
10.a. Late Fees: You will pay a late fee of $20 (which you agree we will add to the balance due on your Account) for payments not made within 10 days of the scheduled due date. Notwithstanding the preceding,
you will not be charged more than the amount of the required minimum periodic payment due immediately prior to the assessment of the late payment fee.
10.b. Returned Check Charge: You will pay a returned check charge (which you agree we will add to the balance due on your Account) if any check, negotiable order of withdrawal, share draft, or item you give
us for payment under the Agreement is dishonored for any reason by the bank or other institution on which it is drawn. We will impose the maximum returned check charge as Applicable Law allows. Currently,
that amount is $25. Notwithstanding the preceding, you will not be charged more than the amount of the required minimum periodic payment due immediately prior to the date on which the payment is returned
or otherwise dishonored. If your payment is returned unpaid, you authorize us to make a one-time electronic fund transfer from your account to collect a fee as provided above.
11. Security Agreement: You grant us a purchase money security interest in each household good purchased with this Account (“Goods”) to the full extent not prohibited by Applicable Law (including the Uniform
Commercial Code). You will, on request, take all reasonable actions requested by us to preserve and protect the Goods and our security interest in the Goods. You also agree to take all reasonable actions
requested by us to establish, determine the priority of, perfect, continue the perfection of, terminate or enforce our security interest in the Goods and our rights under this Agreement. In addition to other rights we
Page 3 of 5

may have under this Agreement, if you do not make payments as agreed, this security interest allows us to take actions not prohibited by Applicable Law governing security interests in the Goods. You also agree
to keep the Goods installed at the address you provided in your credit application and to not remove or alter the Goods without our prior written consent. You may lose the Goods if you do not meet your obligations
to us under this Agreement. We have not (and will not) take any security interest to secure repayment of obligations under this agreement apart from an interest in goods as set forth herein, even when a financing
statement is filed. Accordingly, we do not maintain any interest in your dwelling or real property and waive any right we (or our assignee) may have to foreclose on real property pursuant to any applicable real
property foreclosure laws.
12. Default: If you have not paid the required minimum payment when due on two occasions within any 12-month period, or if you breach a covenant that materially impairs the condition, value or protection of or
our right to collateral secured under this Agreement or materially impairs your ability to pay amounts you owe us, you will be in default. After we have given you notice of your right to cure the default (where
applicable) and after we have waited the appropriate number of days under Wisconsin law, we may declare the remaining balance due and payable and we may commence legal action to recover the
merchandise. You also agree to pay any of our reasonable expenses incurred in the disposition of the merchandise as not prohibited by Applicable Law.
13. Canceling or Reducing Your Credit Limit: We have the right at any time to limit or terminate the use of your Account and raise or lower your credit limit without giving you advance notice. Some purchases
will require prior authorization, in which case you may be asked to provide identification. If our authorizations system is unavailable, we may not be able to authorize a transaction, even if you have sufficient credit.
We will not be liable to you if this happens. We are not responsible for the refusal of anyone to accept or honor an addition to this Account. In addition, even if you cancel the use of your Account, you are still
responsible for any Account balances incurred by an authorized user that remain unpaid.
14. Change in Terms: You agree that we may amend the terms of this Agreement, subject to any notice required by Applicable Law. To the extent not prohibited by Applicable Law, any new terms may be
applied to any balance existing on the Account at the time of the change, as well as subsequent transactions.
15. No Oral Modifications: You agree that we are not bound by any oral agreements or oral modifications to this Agreement.
16. Delay in Taking Action: We will not lose any of our rights under this Agreement if we delay taking action for any reason. To the extent not prohibited by Applicable Law, we may take other action not described
in this Agreement, and by doing so will not lose our rights under this Agreement.
17. Severability: To the extent not prohibited by the Wisconsin Consumer Act, if any provision of this Agreement is found to be unenforceable, all other provisions shall remain in full force and effect.
18. Applicable Law: The law that applies to this Agreement is defined in this Agreement at paragraph 1. Definitions.
19. Telephone Recording: You understand and agree that for our mutual protection, we may electronically record any of your telephone conversations conducted with Seller or Seller's assigns, including Preferred
Credit, Inc. (PCI), without further notice to the parties to such conversations. These telephone conversations include all conversations between you and Seller or Seller's assigns communicated via traditional
telephone wire and wireless devices such as cordless and cellular phones. You acknowledge and consent to the retention of and use of such recordings by Seller or Seller's assigns, their employees,
representatives and agents of all information and data obtained in any recorded conversation for purposes of settling disputes as well as for ongoing quality assurance programs.
20. Communications: You expressly authorize us or our agents to contact you at any phone number (including mobile, cellular/wireless, or similar devices), fax number, or email address, you provide at any time,
for any lawful purpose. The ways in which we may contact you include live operator, automatic telephone dialing systems (auto-dialer), prerecorded message, text message, fax, or email. Such lawful purposes
include, but are not limited to: obtaining information; account transactions or servicing-related matters; suspected fraud or identity theft; collection on the Account; and providing information about special products
and services. You agree to pay any fee(s) or charge(s) that you may incur for incoming communications from us or outgoing communications to us, to or from any such number, or email address, without
reimbursement from us.
21. Credit Investigation and Reporting: You agree that we may investigate your credit in connection with the initial extension, review, or collection of your Account. You agree that we may examine employment
and income records, verify your credit references, and report to credit reporting agencies, merchants, and other creditors the status and payment history of your Account. A negative credit report may be submitted
to a credit reporting agency if you fail to fulfill the terms of your credit obligations.
Your Billing Rights. Keep This Notice For Future Use. This notice contains important information about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at: Preferred Credit, Inc., 628 Roosevelt Road, St. Cloud, MN 56301.
In your letter, give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any potential errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on the amount.
• The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the amount in question, along with the applicable interest and fees. We will send you a statement of the amount you owe and the date
payment is due. We may then report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to pay. If you do so, we cannot report you as delinquent without also reporting that
you are questioning your bill. We must tell you the name of anyone to whom we reported you as delinquent, and we must let those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Account Purchases:
If you are dissatisfied with the goods or services that you have purchased with your Account, and you have tried in good faith to correct the problem with the merchant, you may have the right not to pay the
remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase price must have been more than $50. (Note: Neither of these are
necessary if your purchase was based on an advertisement we mailed to you, or if we own the company that sold you the goods or services.)
2. You must have used your Account for the purchase. Purchases made with cash advances from an ATM or with a check that accesses your account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at: Preferred Credit, Inc., 628 Roosevelt Road, St. Cloud, MN 56301.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you our decision. At that point, if we think you owe an amount and you do not
pay, we may report you as delinquent.
Page 4 of 5

NOTICE: ANY HOLDER OF THIS CONSUMER CREDIT CONTRACT IS SUBJECT TO ALL CLAIMS AND DEFENSES WHICH THE DEBTOR COULD ASSERT AGAINST THE SELLER OF
GOODS OR SERVICES OBTAINED PURSUANT HERETO OR WITH THE PROCEEDS HEREOF. RECOVERY HEREUNDER BY THE DEBTOR SHALL NOT EXCEED AMOUNTS PAID BY
THE DEBTOR HEREUNDER.

REVISED 10-01-2019 PRINTED 00-00-2019
© 1990-2019 Preferred Credit, Inc. ALL RIGHTS RESERVED. Duplication of this document without the copyright owner’s prior written consent is strictly prohibited.

WI15-W
Page 5 of 5

